<html>
<title> - VIETNAM HUMAN RIGHTS ACT OF 2015; AND CONDEMNING THE APRIL 2015 TERRORIST ATTACK AT THE GARISSA UNIVERSITY COLLEGE IN GARISSA, KENYA, AND REAFFIRMING THE UNITED STATES SUPPORT FOR THE PEOPLE AND GOVERNMENT OF KENYA, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
    VIETNAM HUMAN RIGHTS ACT OF 2015; AND CONDEMNING THE APRIL 2015 
 TERRORIST ATTACK AT THE GARISSA UNIVERSITY COLLEGE IN GARISSA, KENYA, 
AND REAFFIRMING THE UNITED STATES SUPPORT FOR THE PEOPLE AND GOVERNMENT 
                    OF KENYA, AND FOR OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                       H.R. 2140 and H. Res. 213

                               __________

                              MAY 14, 2015

                               __________

                           Serial No. 114-66

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-607PDF                    WASHINGTON : 2015                         
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d7a654a697f797e626f667a2469656724">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Markup of

H.R. 2140, To promote freedom, human rights, and the rule of law 
  as part of United States-Vietnam relations.....................     3
H. Res. 213, Condemning the April 2015 terrorist attack at the 
  Garissa University College in Garissa, Kenya, and reaffirming 
  the United States support for the people and Government of 
  Kenya, and for other purposes..................................    24

                                APPENDIX

Markup notice....................................................    32
Markup minutes...................................................    33
Markup summary...................................................    34
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement on H. Res. 213........................    35
    VIETNAM HUMAN RIGHTS ACT OF 2015; AND CONDEMNING THE APRIL 2015 
 TERRORIST ATTACK AT THE GARISSA UNIVERSITY COLLEGE IN GARISSA, KENYA, 
AND REAFFIRMING THE UNITED STATES SUPPORT FOR THE PEOPLE AND GOVERNMENT 
                    OF KENYA, AND FOR OTHER PURPOSES

                              ----------                              


                         THURSDAY, MAY 14, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:13 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Pursuant to 
notice, we are here to mark up H.R. 2140, Vietnam Human Rights 
Act of 2015, and H. Res. 213, Condemning the April 2015 
terrorist attack at the Garissa University College in Garissa, 
Kenya, and reaffirming the United States support for the people 
and Government of Kenya, and for other purposes.
    The first measure, the Vietnam Human Rights Act, I 
introduced along with eight co-sponsors. It is a bipartisan 
bill. It is the fourth time this legislation is making its way 
through the Congress. Three other times it passed the House, 
but regrettably was not taken up in the Senate. Our hopes are 
this year it will be. And the H. Res. 213 was introduced by my 
good friend and colleague, Ms. Bass, and that, too, is a 
bipartisan resolution that will make its way to the floor very, 
very shortly after full committee consideration.
    Due to the bipartisan support for these measures, the fact 
that the subcommittee will reconvene following the markup for a 
hearing as well as scheduling of other events and floor 
activity, it is the intent of the Chairman to consider these 
measures en bloc. I understand that our staffs have been in 
communication, and Ms. Bass has graciously consented to this. I 
also that Mr. Bera may also wish to further consult with regard 
to the Vietnam Human Rights Act in advance of the full 
committee markup with regard to provisions dealing with labor 
protections.
    All members have copies of these documents before them 
which were circulated to you on Tuesday, and after we have 
concluded our expedited consideration, I will be glad to 
recognize any member, including myself and the ranking member 
and our distinguished colleagues to my right, for any comments 
they might want to make on the pending legislation. All members 
are given leave to insert remarks into the record should they 
choose to do so. Seeing that we do have a reporting quorum 
present, without objection the following are considered as read 
and will be considered in en bloc: H.R. 2140, Vietnam Human 
Rights Act of 2015, and H. Res. 213, Condemning the April 2015 
terrorist attack at the Garissa University College in Garissa, 
Kenya, and reaffirming the United States support for the people 
and Government of Kenya, and for other purposes.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
    Mr. Smith. The Chair moves that the en bloc items be 
adopted. All those in favor say aye. All those opposed say no. 
The ayes have it, and in the opinion of the Chair, the items 
considered en bloc are adopted. Without objection, the measures 
as amended are reported favorably to the full committee, and 
the staff is directed to make technical and conforming changes.
    I would note that we now have completed our formal 
consideration of these measures, and I would recognize members 
for remarks that they might want to make.
    I would like to first speak to the Vietnam Human Rights Act 
of 2015. Although we have witnessed the release of some 
political prisoners in Vietnam, we should not be fooled or 
deceived into believing that the release of a few dissidents 
somehow represents real progress on human rights in Vietnam. 
The underlying reality of repression in Vietnam is 
fundamentally unchanged. The Government of Vietnam continues to 
hold prisoners of conscience whose so-called crimes are only 
their attempts to exercise universally-recognized human rights.
    Since the State Department removed the Country of 
Particular Concern designation with respect to religious 
freedom in Vietnam, the situation there has gotten worse, and I 
have heard from witnesses at hearings who have spoken of the 
particularly egregious situation that exists for ethnic and 
religious minorities. Forced renunciations of faith continue, 
and people and institutions in a wide range of faiths are 
harassed by authorities unless they submit to government 
control and interference.
    In order to show that we are serious about protecting human 
rights, there must be serious consequences for failure to make 
meaningful and systemic reforms that should take place. 
Increased commercial ties and military cooperation, frankly, 
should be off the table unless basic human rights standards are 
met. Respect for the freedoms of religion, expression, and 
assembly are a minimum. The U.S. must be unrelenting in its 
demands for improvement for human rights in Vietnam. If not, 
the repression will only get worse.
    This piece of legislation would institute effective 
measures toward improving human rights in Vietnam. The bill 
prohibits any increase in non-humanitarian assistance over 2012 
levels, when it was over $16 million, to the Government of 
Vietnam unless it makes substantial progress in establishing a 
democracy and promoting human rights, including respecting 
freedom of religion and releasing all religious prisoners; 
respecting rights of freedom of expression, assembly, and 
association, and releasing all political prisoners, independent 
journalists, and labor activists; repealing and revising laws 
that criminalize peaceful dissent, independent media, 
unsanctioned religious activity and nonviolent demonstrations 
in accordance with international human rights standards; 
respecting the human rights of members of all ethnic groups; 
and taking all appropriate steps, including prosecution of 
government officials to end government complicity in human 
trafficking.
    The bill would not prevent increased funding to the 
Vietnamese Government for certain humanitarian assistance such 
as food, medicine, Agent Orange remediation, or activities to 
combat human trafficking or child labor.
    The Vietnam Human Rights Act seeks to bring balance to any 
future strategic partnerships by ensuring that the United 
States' interest in human rights, including freedoms of speech, 
religion, assembly, and association, and the rule of law are an 
integral part of that bilateral relations.
    Its enactment will send an unmistakable message to Hanoi 
that human rights improvements are fundamental to better 
relations critically linked to our mutual economic and security 
interests, and cannot be ignored or bargained away.
    I would like to yield to any of my colleagues if they would 
like to, perhaps, comment on any of the legislation. Mr. Emmer.
    Mr. Emmer. Thank you, Mr. Chair, and thanks to Ranking 
Member Bass for holding this markup on two very important and 
timely pieces of legislation. In the last few months, I have 
traveled to both Kenya and Vietnam. House Resolution 213, 
Condemning the April 2015 terrorist attack at the Garissa 
University College in Garissa, Kenya, and reaffirming the 
United States support for the people and Government of Kenya, 
is vitally important. During my trip I saw firsthand the 
devastation caused by the gruesome killings in Kenya and the 
diplomatic and humanitarian crisis it left. From security 
crises that forced closure of refugee camps, causing 
displacement across the country, to the cancellation of 
remittances that people rely on, this attack has caused 
incredible harm. I fully support the resolution and urge its 
passage.
    Just last week, I was in Vietnam, and as a co-sponsor of 
H.R. 2140, to promote freedom, human rights, and the rule of 
law, as part of United States-Vietnam relations. I want to 
mention that the nation of Vietnam has made tremendous strides 
in the cause of human rights, from what we observed, and that 
should not be lost in this conversation. But there is much left 
to do. During our trip to Vietnam, our delegation conveyed this 
to our Vietnamese hosts, and to their credit, they agreed. In 
other words, there is an ongoing dialogue. We must hold them 
accountable, and especially in the face of a major trade deal, 
it is absolutely necessary we ensure that any advancement in 
cooperation is met by continued advancements in human rights. I 
fully support both of these important bills and yield back.
    Mr. Smith. Thank you so very, very much. Mr. Clawson.
    Mr. Clawson. Yield back. Very supportive.
    Mr. Smith. I would ask unanimous consent that my comments 
on the resolution on Kenya be made a part of the record. I want 
to thank my colleagues for their participation and presence 
here today. This markup is concluded, and momentarily we will 
begin the hearing on trafficking.
    [Whereupon, at 2:22 p.m., the subcommittee was adjourned.]
                                     

                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
